HHS/OIG, Audit - "Review of Texas Physical Therapist's Medicare Claims for
Therapy Services Provided During 2002," (A-06-07-00061)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Texas Physical Therapist's Medicare Claims for Therapy Services Provided
During 2002," (A-06-07-00061)
December 14, 2007
Complete
Text of Report is available in PDF format (1.07 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review
was to determine whether therapy services provided by a Texas physical therapist
during calendar year 2002 met Medicare reimbursement requirements.  None of
the sampled claims met Medicares reimbursement requirements.  In total,
688 of the 702 services documented in 97 claims did not meet one or more of
Medicares reimbursement requirements.  The physical therapist did not have
a thorough understanding of Medicare requirements and did not have effective
policies and procedures to ensure that he billed Medicare only for services that
met Medicare requirements.  As a result, the physical therapist improperly
billed Medicare and received $12,652 for the 688 services.
We
recommended that the physical therapist refund to the Medicare program $281,325
in unallowable payments for therapy services provided in 2002 and develop
quality control procedures to ensure that therapy services are provided and
documented in accordance with Medicare reimbursement requirements. The physical
therapist did not agree with our findings and recommendations.